Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




      THE NATIONAL MEDICAL
       EXPENDITURE SURVEY




               FEBRUARY   1993
                      OFFICE OF INSPECrOR GENH3AL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Sewices’ (HHS)
programs as well as the health and welfare of beneficiaries sewed by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES

The OIG’S Office of Audit Semites (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse. and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS

The OIG’S Office of Investigations (01) conducts criminal, civil. and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneilciaries and 0[
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State iMedicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION AND INSPECHONS

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs. This report was prepared in the New York
regiona[ office under the direction of Thomas F. Tu1ly, Regional Inspector General and Akin
S. Meyer, Deputy Regional Inspector General. Project staffi

REGION II                                  HEADQumms
Joseph J. Cmso, Jrv Project Leader             SusaIIHardwick
Joseph NILBenkoski
Lucillc ~ ~p



To obtain a copy of this report, call the New York regional office at (212) 264-19%
Depatiment of Health and Human Semites
        OFFICE OF
   INSPECTOR GENERAL




      THE NATIONAL MEDICAL
       EXPENDITURE SURVEY




           FEBRU~Y   1993   OE142-n-oo350
              EXECUTIVE                          SUMMARY

PURPOSE

TO gauge the responsiveness    of the National Medical Expenditure Survey (NMES) to
the needs of Federal officials engaged in health care program, budget and legislative
activities.

BACKGROUND

The NMES is a major data collection and research program undertaken approximately
every 10 years. It provides data on health care utilization, costs, sources of payment
and insurance coverage of the Nation’s population. As of October 1992, versions of
16 public use tapes containing data from the 1987 NMES-2 suwey are available to all
public and private sector users. Another will be available in November 1992, with
more planned for release over the next several years.

The NMES-3 began in Fiscal Year (FJf) 1991 with methodological        studies that will be
conducted through FY 1994. The suney itself will be conducted during FYs 1996 and
1997. Estimated fina~ costs will be around $80 million, depending on the extent to
which historical costs, methodological studies, follow-up analyses, and staff costs are
included.  These amounts will be reexamined in the FY 1994 budget process.

As part of the NMES-3 planning process, the Agency for Health       Care Policy and
Research (AHCPR),      in the Public Health Setice  (PHS), organized an
intradepartmental   work group, called the NMISS Work Group, to assess departmental
user needs. In addition, several work groups in HHS are studying various health care
utilization and expenditure suweys being conducted.    The largest group is the Data
Planning and Analysis Group.

This inspection was requested by the office of the Assistant Secretary for Planning
and Evaluation (ASPE) in the Department of Health and Human Services (HHS).

SCOPE AND METHODOLOGY

We analyzed descriptions, prepared at our request, of AHCPR procedures for
assessing Federal user data needs and priorities for responding to user requests for
NMES-2 data. We interviewed 25 NMES-2 users from HHS and other Federal
agencies and Congressional organizations, either in person or by phone. We also
obtained documents regarding the structure and operation of the NMES Work Group.




                                             i
FINDINGS

RESPONDE~   ARE GENERALLY               SATIS~D       WITH NM=       PRODU~
AND AHCPR SERVIC=

        o    AHCPR has established priorities for sefing   Federal users

        o    Responses to data requests are timely

        o    All respondents   consider data useful

        o    Respondents   rate AHCPR staff helpful

NEVERTHELESS,       SOME DATA CONCERNS AND PROCEsS                   PROBLEMS
EXIST

        o	   Lack of currency of NMES-2 data and lack of institutional     expenditure
             information are viewed as impediments

        o	   Questions are raised about the NMES Work Group’s mission and
             membership

             The budget process appears inadequate,    requiring   greater structure
        o

        o	    Strategic planning process appears fragmented and in need of
              improvement

 RECOMNfE~ATIONS

 The PHS should take steps to clari~ for all members the purpose of the NMES Work
 Group and the role members are expected to play.

 The ASPE and the Assistant Secretary for Management and Budget (ASMB) should
 undertake a strategic review of medical expenditure data sources.

 The PHS, ASPE, and ASMB should reach agreement on information needed by the
 Office of the Secretary to effectively analyze current and upcoming NMES budget
 requests.

 The PHS should identify innovations to speed up the release of NMES data as soon as
 is technically feasible.




                                              ii

AGENCY        COMMENTS

The Assistant Secretaries for Health and Management and Budget provided written
comments on the draft of this report. The Public Health Service (PHS) supports the
findings and recommendations     and made several technical comments; the report
reflects related changes where appropriate. The Assistant Secretary for Management
and Budget (ASMB~ proposed d;let{ng the recommendation that ASMB and ASPE
undertake a joint strategic review of medical expenditure data sources.

The ASMB notes that the interdepartmental Data Planning and Analysis Work Group
(DPAWG) “already has activities undeway which address the report’s
recommendation.”   We acknowledge DPAWG’S role in the report and recognize that
DPAWG has recently made plans to accomplish some of what we recommend.
However, since these plans are not yet developed in detail, we are retaining this
recommendation at this time.

With regard
       u
              to ASMB’S request for the Office of Inspector General to commit to a
“review/assessment of the DPAWG’S efforts in approximately a year,” we w 11consider
this suggestion in our upcoming workplanning process.

The Assistant Secretary for Planning and Evaluation did not comment in writing, but
verbally concurred with our findings and recommendations.   The complete comments
of PI-IS and ASMB are included verbatim in Appendk B.




                                          .. .
                                          111
                      TABLE                     OF CONTENTS

EXECUTIVE          SUMMARY

INTRODUCI’ION            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..1

FINDINGS       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...5

 TimelinessAndUsefulness OfNMES
 Products AndAHCPRSemices    . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...5


 Data Concern       sAndProces          sProblems . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...6



RECOMMENDATIONS                      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...9


APPENDIX       A

 Usefulness ofDataReceived.                  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-1

 Helpfulness ofAHCPRStaff                  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .4-2

APPENDIX       B

                      Secretaries for Health and Management and Budget B-1
 timments oftheAssistant
                         INTRODUCTION


PURPOSE

TO gauge the responsiveness of the National Medical Expenditure Sumey (NMES) to
the needs of Federal officials engaged in health care program, budget and legisl~ltive
activities.

BACKGROUND

The NMES is a major data collection and research program undertaken approximately
every 10 years. It provides data on health care utilization, costs, sources of payment
and insurance coverage of the nation’s population. Within the Department of Health
and Human Services (HHS), the NMES is the responsibility of the Agency for Health
Care Policy and Research (AHCpR) in the Public Health Smwice (PHS), through its
Center for General Health Services Intramural Research.

Historical devebpment of the NMES

The first survey, which covered calendar year 1977, was called the National Medical
Care and Expenditure Survey (NMCES, also known as NMES- 1). Two agencies
jointly managed it. They were the National Center for Health Services Research
(AHCPR’S predecessor agency) and the National Center for Health Statistics (NCHS).
which is part of the Centers for Disease Control.

For NMES-l, members of a sample of households were interviewed si.. times in 1977-
7S to obtain personal and family health care use and expenditure data. Data affectin:
a broad range of issues were collected, including the number and characteristics of the
uninsured and the differences among socioeconomic and demographic groups with
respect to the use of heahh sew-ices.

Description of the NMES-2 survey

The NCHSR managed the conduct of the NMES for 1987, known as NMES-2. It was
expanded over NMES-1, based on the recommendations of the Health Care Financing
Administration (HCFA), the Assistant Secretary for Planning and Evaluation (ASPE),
and the Indian Health Semite (IHS). In addition to the household suwey, a separate
Survey of American Indians and AIaska Natives (SAIA.N) and an Institutional
Population   Component   (lPC) were performed.

The household sumey used a national probability sample of approximately 14,000
households and 35,000 persons from the civilian, non-institutionalized population.
Populations of special interest to Federal policy makers, including blacks, Hispanics,


                                            1
the elderly and the functionally impaired, were oversampled. Each family was
intemiewed four times over 16 months. The data collected include household
composition, employment and insurance. Also, for each family member, they contain
information on illnesses, use of health services, and health expenditures for the entire
year 1987.

Information gathered from the medical providers, employers and insurers of the
persons in the household sample supplemented these data.

The SAIAN was similar in design to the household survey. It collected data which can
be used to compare the American Indian and Alaska Native population with the
general U.S. population in areas such as health status, use of health services and
access to care.

The IPC collected information on 11,000 residents and new admissions to nursing
homes, personal care homes and homes for the mentally retarded. It obtained data
on expenditures and characteristics of facilities as well as sources of payment for
residents.     The IPC included next-of-kin and obtained data from the respondent’s
family or friends on the personal history, financial status and insurance coverage of the
institutionalized   person.

Field work for the NMES-2 surveys was conducted by Westat, Inc., Rockville, lMD, as
the primary AHCPR contractor and by the National Opinion Research Center,
University of Chicago. Additional work was performed by the Council of Energy
Resource Tribes, Denver, CO and by Stephen R. Braund and Associates, Anchorage.
AK., Social and Scientific Systems, Inc., Bethesda, MD, has been providing data
processing serwices during the analysis stage.

Availability of NMES-2 data

Copies of NMES-2 preliminary data tapes have been made available to Federal
agencies on an on-call basis whenever data processing has advanced to the point that
it is feasible to produce them; final public use tapes have also been made available to
them and the general public since the fall of 1987. AS of October 9, 1992, versions of
16 public use tapes are available to all public and private sector users. Another one
will be available in early November 1992, and more are planned for release over the
next several years. The AHCPR has also provided special analyses and special
research data tapes upon requests from Federal agencies. In its technical assistance
role, AHCPR has provided training and guidance to all users and prospective users of
NMES-2 data. This has included conducting seminars around the country. In
addition, AHCPR staff authored journal articles, research papers, Research Findincs,
Data Summaries and Methods reports based on NMES-2 data.




                                             2

?%e development of the NMES-3 survey

The NNIES-3 began in Fiscal Year (FY) 1991 with methodological studies that will be

conducted through FY 1994. The survey itself will be conducted during FYs 1996 and

1997. Estimated final costs will be around $80 million, depending on the extent to

which historical costs, methodological studies, follow-up analyses, and staff costs are

included. This estimate will be reexamined in the FY 1994 budget process.

Contractors will be selected to perform functions similar to those for NMES-2.


As part of the NMES-3 planning process, AHCPR organized an intradepartmental

work group, called the NMES Work Group, to assess departmental user needs related

to NMES-3. A similar group had been formed in the mid-1980’s for NMES-2. This

group first met at the invitation of AHCPR in May 1992 and again in June to discuss,

among other issues, the purpose of the group, its agenda, members’ roles, and

members’ opportunities to translate their agencies’ data needs into the NMES-3

design. There are nine members of the NMES Work Group from HHS agencies

outside AHCPR, including representatives from ASPE, the Substance Abuse and

Mental Health Services Administration (SAMHSA), the Office of the Assistant

Secretary for Health (OASH), HCF~ the National Center for Health Statistics

(NCHS), and IHS.

Strategic planning for health cure utilization and expenditure swwys

Currently, several work groups in HHS are   studying various health care utilization and
expenditure  surveys being conducted within the department.   The largest group is the
Data Planning and Analysis Group (DPAWG), established in 1990. It addresses
concerns about major gaps in HHS data systems, potential duplication and barriers to
sharing of information across the department. The DPAWG has members from
ASPE, HCF~ OASH, SAMHSA, NCHS, the Assistant Secretary for Management
and Budget (ASMB), the Social Security Administration (SSA) and AHCPR. Several
members of this group are also members of the NMES Work Group.

DPAWG has begun the preparation of a strategic plan for the department       (outlined in
a statement of purpose dated March 1992) which calls for:

       identi@ing current and future data requirements: evaluating whether and
       how well current data systems meet these requirements, including
       examination of existing data sharing and access policies; and making
       recommendations for changes that ensure departmental data systems are
       of maximum Department-wide utility. Priorities shall be established for
       meeting departmental needs which are consistent with current resource
       availability.

This inspection was requested by ASPE.




                                             3
SCOPE AND METHODOLOGY

We analyzed descriptions, prepared at our request, of AHCPR procedures for
assessing Federal user data needs and priorities for responding to user requests for
NMES-2 data.

We interviewed 25 NMES-2       users from HHS and other Federal agencies and
Congressional organizations,   either in person or by phone, to gather views and other
information on their experiences with NMES-2, their experiences in dealing with
AHCPR and their thoughts about NMES-3. Within HHS, we talked to
representatives from ASPE, HCF~ NCHS, IHS and ASMB. Outside of HHS, we
talked to contacts within the Office of Management and Budget (OMB), the
Congressional Budget Office (CBO), the Joint Congressional Committee on Taxation.
the Congressional Research sex-vice, the Department of the Treasury and the
Department of Labor.

To select our initial pool of respondents, we conducted preliminary interviews with
persons identified by ASPE and AHCPR as those in Federal agencies having some
experience with the NMES. We talked to those individuals and, through them,
identified others, in and outside the Federal government, with similar experiences - 52
altogether. Of the 52, we chose the final sample of 25 individuals who have had
extensive hands-on experience working with preliminary data files, special analyses,
and public use tapes provided by AHCpR and who interact with AHCPR staff in the
process. These study respondents work for HCF~ ASPE, OMB, IHS and CBO.
These agencies sometimes also use contractors to work with the data files. The
agencies rely on these respondents to request, receive, and utilize all kinds of NMES
data in the development of health care policy, budgetary and/or legislative initiatives.

We did not include in the study occasional requestersand users of the data from other
Federal agencies and commissions and Congressional committees. Only some of these
users utilize NMES data in the development of health care policy, budgetary and
legislative initiatives.

We also obtained documents regarding the structure and operation of the NMES
Work Group and interviewed nine of its members. We interviewed these nine
members after the group’s second meeting.        Most of these respondents   were also
interviewed as users of NMES-2 data.

We also intetiewed a small number of senior Departmental officials regarding the use
of NMES data in policy deliberations and about Departmental data and statistical
planning.




                                             4
                                FINDINGS

-PO~ENTS    ARE GENERALLY                SATISFIED WITH NMES PRODU~
AND AHCPR SERVICES

AHCPR has established ptities    for sewing Fexkral users

In setting priorities, AHCPR reported to us that it tries to respond to all requests for
information. However:

       ... when there are conflicts with respect to the availability of
       programming support, staff time, or funds, users are accommodated in
       the following order of priority (highest to lowest): Executive Branch,
       Legislative Branch, State and Local Government, private research
       organizations, and individuals.

       ... In general, research projects are the first displaced by a priority
       request. Public use tapes development is next. Congressional responses
       are last to be displaced by a DHHS or an OMB request.

Because of concerns about timeliness problems experienced with the release of
NMES- 1 data, AHCPR has developed a system for releasing preliminary data to
Federal users from NMES-2 before public use tapes are available. The preliminary
data tapes are provided by AHCPR with warnings about reliability, since weights may
not have been developed and the data may have not been fully “cleaned.” As noted
below., AHCPR has res~onded to 168 requests for NMES-2 data from our 25 Federal
respondents. Of these,’ 118 consisted of preliminary data, including early versions of
public use tapes, special analyses and tabulations. The other fifty responses were for
public use tapes.

Response to dizta reqwts   are timely

 Respondents confirm receiving a total of 168 responses from AHCPR. These users
 report receiving 160 (95 percent) of 168 responses soon enough to make good use of
 them. In only eight instances were data reportedly not received soon enough. In six
 of them, respondents did not feel it was so important to have obtained the data
 sooner. of the remaining two, one respondent considered it critically important and
 another rated it quite important to have received the data sooner. (See Appendix)

All respondents consider dala useful

 All respondents rate the data received very (87 percent) or somewhat (13 percent)
 useful in meeting their needs. Using the data, some calculated health insurance rates
 and cost estimates for OMB; others analyzed expenditures by age groups and


                                             5
                           APPENDIX             A

         NNQNENE    BY AGENCY AND NUMBER OF DATA ~m
               DATA RECEIVED IN TIME TO BE USE~
                                                                                     I
                                1               I


Agency             No.               # Data         In   Time   For   Use:       #   ~
             Respondents            Requ ests                                        II
                                                                                     I
  A                 1                   30               Yes            30           :1
                                                                                     II
  B                 5                   28               Yes            27
                                                         No              1           ;1
                                                                                     ;~
  c                 3                   17               Yes            17
                                                                                     ~
  D                 1                   21               Yes            20           [
                                                         No              1           I
  E                 1                      9             Yes                 9       ‘!
                                                                                     ,
                                                                                         :1
  F                 1                      2             Yes                 2
                                                                                         i~
  G                 1                      4             Yes                 4
                                                                                          I
                                                                                         ,!
  H                 4                   26                Yes           26               ‘~
                                                                                         I
                                                                                         I
   I                2                   15                Yes           15
                                                          Yes                5           ,I
  J                 1                      8
                                                          No                 3
                                                                                         II
   K                1                      3              No                 3
   L                2                      0              Yes                o           ‘~
   M                1                      4              Yes                4
   N                1                      1              Yes                1

TOTALS :            25                  168               Yes          160               ~
                                                          No              8,




                                    A -1
estimated the cost of tax credits for the   Administration. Some employed the data in
developing other health policy models.      Most report that NMES-2 data are used to
verify and increase the confidence level    of estimates they make. A third of the
respondents consider NMES-2 the only        source of data to meet their particular needs.

Many of the 25 respondents used NMES-2 data in more than one of the following
functions: policy (18), budget (13) and legislative (6). In responding to how necessary
NMES data are in fulfilling each of these 37 roles, the respondents reported that the
data are very (27) or somewhat (8) necessary.

According to respondents, the debate over health care reform will continue into the
next Administration and will intensify. They believe that pressure will build for new
NMES data to apply to proposed models for the end of the decade and into the next
century. Respondents from HCFA expect to use NMES-3 to help gauge the impact of
major health care delivery and policy changes of the late 1980’s and early 1990’s, such
as managed care and Physician Payment Reform, which are beyond the scope of
NMES-2.

Respondents mte AHCPR staff helpfhl

Of 21 respondents who rated AHCPR staffs helpfulness in providing timely access to
NMES-2 data, 19 rate the staff either very helpful (17) or somewhat helpful (2). Two
respondents said the help was mixed over time.

Similarly, of 22 respondents who rated AHCPR staffs helpfulness in providing
technical assistance in using the data, 20 respondents said the staff was very helpful
(19) or somewhat helpful (l). One respondent said AHCPR staff was not at all
helpful in providing technical assistance.

With regard to each type of helpfulness, four of the 25 respondents did not rate
AHCPR staff. They explained that they did not need help from AHCPR staff or thev.
did not have a sufficient basis on which to rate their help. (See Appendix).

NEVERTHELESS,         SOME DATA CONCERNS AND PROCESS PROBLEMS
EXIST

Luck of cumency of NMES-2 data and lack of institutiomlexpenditureinformation
vinwi as impediments

Despite the generally high level of AHCPR responsiveness to Federal users needs.
some concerns exist about the age of NMES-2 data in released public use tapes. Halt’
the respondents expressed general concern about the currency of NMES-2 data.
While most have been able to make good use of released data, they note that it is now
nearly five years old and aging.




                                               6
We are unable    to assess the significance            The aging of data in large~
                                              of this concern.
complicated sumeys is a common problem. AHCPR staff provided information about
other large sumeys showing comparable elapsed times between the end of data
collection and the availability of public use tapes.

A particular concern of one user is the lack of expenditure data related to the
mentally retarded and developmentally disabled population sumeyed in the
institutional component. Some of these data are scheduled for release later this year.
This user (a member of the NMES Work Group) points out that improving similar
data collection in NMES-3 is very difficult without having first assessed the related
NMES-2 data.

The AHCPR has advised us, in response to concerns about release of the Institutional
Population Component (IPC) of NMES-2, that “The primaxy factors controlling the
release of these data are technical, involving to a large extent issues that were not
foreseen at the outset of the process.” The agency explained that:

                It was the panel nature of the IPC, the need for repeated
                contacts, and the information to estimate use and expenditures
                for the full year that introduced the complexities and determined
                the time of Public Use data tape distribution.

The AHCPR also pointed out that all data tape production was stalled during 1990
and 1991, while the agency responded to requests related to health care reform.

Que40ns    raked aboui the NMES Work Gmup3 misswn and membe~hip

No charter or similar document exists which specifies the NMES Work Group’s
purpose or defines the roles of AHCPR and group members.

.The majority of members of the Work Group do not feel that short-term (six of nine)
 and long-term (eight of nine) agendas have been established for addressing primary
 user interests in, and concerns with, NMES-3. Responses were inked as to whether
 the group represents an effective forum for users to provide input to the development
 of NMES-3. Of six clear responses, three say yes and three say no, and only those
 members who said yes believe that AHCPR is open to making suggested changes.
 Four others say they don’t know, and two say they don’t believe AHCPR is open to
changes.

Although contracts were let to conduct methodological studies needed to plan and
operate NMES-3, none of the agencies represented by these members were asked for
input to AHCPR’S formulation of the scope of work for contractors.

With one exception, these members agree that the composition of the work group
does represent users with the greatest need for the data. However, it should be noted
that two of the heaviest users of NMES-2 data have been OMB and CBO, both of


                                                 7
which are outside HHS and not represented     on the work group. h addition,
discussions with other department off~cials revea] that the work group composition
does not successfully represent senior policy staff interests and concerns for current
and anticipated data needs. (See following section on strategic planning process).

The budget process ap~ars *MW
                          -             r+g       greater stmcture

The AHCPR requested $10 million for Fiscal Year (FY) 1994 to help accelerate data
collection for NMES-3. This came as a surprise to departmental agencies concerned
about its cost, who had expected this kind of funding to be one year later, for FY
1995. This is not to imply that the acceleration was inappropriate. However, the time
period for reviewing the request was short. This request was based on AHCPR’S
analysis of procurement schedules necessary to prepare for field work to be
accomplished according to the original schedule.

We also found that key documents needed by ASPE and ASMB were not available to
them. The documents -- schedules and descriptions of major NMES survey
components -- had, in fact, been prepared, but had not been submitted with the
budget request. Subsequent to our noting this problem, and bringing it to the
attention of both AHCPR and the Office of the Secretary, these documents were
submitted and have been reviewed. However, the event illustrates the fact that PHS
and Office of the Secretary staff had not established a budget review process adequate
to deal with this large project.

Strat~”c planning process ap~an jkagmented and in need of improvement

Based on our review of the decision-making processes, we identified weaknesses in
processes needed to develop a strategic plan for evaluating current and future health
care utilization and expenditure suneys. Several senior officials we interviewed agreed
with this obsemation. We noted that technical experts rather than senior policy
decision makers were engaged in the developmental process. Several respondents
expressed some resemation about spending $80 million or more for NMES-3, by !%
the costliest health care utilization and expenditure sumey in the Department.   More
broadly, the respondents viewed the collection of such data within HHS as a
fragmented process, with possible duplication of effort and excessive overall cost a
likely consequence.




                                              8
                   RECOMMENDATIONS

The PHS should tie steps to chri& for all members the purpose of the NMES Work
Group and the role members are expected to play.

In particular, short- and long-term agendas should be drawn up and shared. Attention
should be given to addressing member concerns about opportunities to have NMES-3
reflect user needs. A decision should be made as to whether this group should consist
primarily of technical experts or more senior policy officials, or both. In any event, a
mechanism is needed to more explicitly obtain the review and input of senior policy
officials. Such planning might consider representation of other Federal agencies,
including OMB and CBO, which have a large stake in NMES data.

The ASPE and ASMB should undertake a strategic review of medical expenditure
data sources.

This could be done under the auspices of the DPAWG or other group. It should
involve all affected HI+IS components, including pHS and HCFA. There should be
more direct coordination between the NMES Work Group and the DPAWG in the
development of a strategic plan to meet HFIS’S data needs in the most efficient and
effective manner possible. This effort should raise and answer fundamental questions
about scope, accuracy, precision and confidence ]evels, as well as levels of funding for
sumeys. It should consider the availability of medical expenditure data from the
NMES as well as other sumeys and studies. Senior poIicy officials should be involved
in the decision-making process.

The PHS, ASP~ and ASMB should reach agreement on information needed by the
Office of the Secretaxy to effectively analyze current and upcoming NMES budget
requests.

With a project as expensive, prolonged and complex as NMES, it is likely that
revisions to the budget and schedules will be needed periodically.

The PHS shouId identifj innovations to speed up the release of NIVfES data as soon as
istechnically
          feasl%le.

We recognize that AHCPR has taken steps in its NMES-3 methodological         studies to
find ways to improve the release time for public use tapes. We encourage AHCPR’S
pursuit of additional innovative ways to collect data crucial to meeting the health care
policy, budget, and legislative needs of the department.




                                            9
         REPO~ENTS           BY AGEN~:     AHCPR ST-      HELp~N_=S
                                                                                          1



                                  Access To Data            Technical
Agency           No      �

                                                            Assistance                     !
          Respondents                                                                      !I
                                                                VH-1                        1
   A             1                VH-1
                                  VH-3     SH-1   MX-1          VH-4       OT-1            I
   B             5
                                                                VH-1       SH-1      OT-1 _
    c            3                VH-2     OT-1
                                  SH-1                          VH-1                          1
    D            1
                                  VH-1                          VH-1                          )i
    E            1
                                  VH-1                             VH-1                        I
    F            1
                                                                   VH-1                        I
    G            1                VH-1
                                                                   VH-3     OT-1              I
                 4                VH-4                                                        I
    H                                                                                         I
                                                                   VH-2                       I!
    I            2                VH-2                                                         I
                                                                   NAH-1	                      !

    J            1
                MX-1                                                        I

                 1
                VH-1                            VH-1

    K                                                                                          ,
                                   OT-2                            VH-1     OT-1

    L            2
                                                                           I
                                   OT-1                            VH-1                       .

    M                1

                     1             VII-l                           VH-1

    N
           KEY                                           TOTALS


                                          VH-17                            VH-19

VH: Very Helpful                                                           SH-1

SH : Somewhat Helpful                     SH-2
                                          MX-2                             MX-O

MX: Mixed                                                                  NVH- O

NVH: Not Very Helpful                     NVH-o
                                          NAH-O                            NAH- 1

NAH: Not At All Helpful                                                    OT-4

OT : other                                OT-4




                                         A -2�
            APPENDIX                B

    COMMENTS OF THE ASSISTANT SECRETARIES
FOR HEALTH AND MANAGEMENT   AND BUDGET

                ( SEE ATTACHMENT)




                      B-1
 >-g?
.=  ,Luvlt

 *’-

             1,   ,




  Jg
                                                                                             Office of the Secretary
                         DEPARTMENTOF               HEALTH & HUMAN SERVICES
:<
 2-.,
   ‘ti~%.,                                                                                   Washington,   D.C.   20201
       7UW4
         ,~
                                                               JAN -71993


                      MEMOWDUM             TO THE INSPECTOR GENE~L
                        Attn:         Bryan        Mitchell                                   n

                      From

                              /
                      Subject~ :
                                &     .         Arnold R. Tompkin
                                                Assistant Secz stzry fo

                                                OIG Draft Report: !ITh~~ational
                                                Suney”  -- COMMENTS  -
                                                                                   Me~#l
                                                                                     b“

                                                                                              Expenditure



                      We have reviewed  the OIG draft report: ~’TheNational Medical
                      Expenditure Suney”   and agree to clear the report wltYL the
                      following modifications.


                      we propose        a modification         to the second       report  recommendation
                      reflected        on page ii of the Executive              Summary and on page g of
                      the full       report.      The Data Planning          and Analysis     Work Group
                       (DpAwG) has lead         responsibility         for the strategic        review    of
                      medical      expenditure       data     sources,    i.s reviewing    Department-wide
                      data    efforts,       and DPAWG already         has activities      underway      which
                      address      the reportts        recommendation.          We suggest    that    the report
                      drop the recommendation               for a joint      ASPE/ASMB effort,        recognize
                      the activities          of the DPAWG, and commit the OIG to a follow-on
                      reviewiassessment           of the DPAWGIS efforts             in approximately a year.

                      Also , since the report focuses primarily on NMES II experience,
                      we would propose that the OIG report on how the NMES III planning
                      process has accounted for, and improved ont problems
                                                                   .
       identified

                      with ms    II.  AHCPR, the NMES work group, and the DPAW: are

                      working towards developing a survey and database which 1s more

                      timely and which better supports health care policy decision-

                      makers.





                                                                                                                          —.
                                                                                                                          ..
                        IG      ‘-

                                                                                                                  ..
                                                                                                                              1---

                                                                                                                          _-2..
                                                                                                                                  ---




                                           .
                                           ..
                                                     __——
                                                        —
                                                                                                                                        --




                                          -s
                                                  ---   =
                                          —a’       “--
                                                                                                                   ..
                                                                                                                  --
                                                                                                                  --


                                                                \
  *F*
        >-     ‘+.
               . .+
..                                                                                                 Public   Heati
                                                                                                                SwtC8

r-
.
                     DEPART~NT         OF HEALTH & HU W     SEIWCES
:

:
 #
%
 -*>
  +%vd,a
   >
                                                                                              Memorandum

             Date      9JM181993

             From      Assistant        Secretary   for Health


             Subject
                       Office       of Inspector    General        (OIG) Draft      Report       “The       National
                       Medical        Expenditure   Sumey,”         oEI-02-92-00350

             To        Acting       Inspector General,        OS


                       Attached  are the Public         Health     Service    comments  on the Stiject
                       OIG draft   report.     We concur with the report’s             reco~endfitj~ns
                       and have taken      or will    take    actions      to implment    ~~~”
                       included  for your consideration are several techn~cal
                       comments.
                                                   A

                                                                   (yh&’#4=
                                                     ames     O.    Mason,    M.D.,    Dr.P.H~

                       Attachment




                                                                                                                                      . .        .,.
                                                                                                                       ~:..                  .. -
                                                                                                                              .**.”
                                                                                                                       L“


                                                                                                                                                     .
                                                                                                                                               .,- .
                                                                                                                              ----               -. ,-
                                                                                                                                               .,---
                                                                                                                                        .“
.




     P~L1c  HEALTH SERVICE [P~S) COMMENTSON THE OFFICE OF INSPECTOR
       GENERAL (OIG) DRAFT REPORT “THE NATIONAL MEDICAIJ EXPENDIT~E
                    SURVEY,”     0EI-02-92-O0350,        ISSUED   NOVEMBER 1992


    The OIG report         contains        four    recommendations ~ three of which are
    addressed       to   PHS.      Following       are the comments on the
    recommendations           addressed       to   PHS .

    OIG Recommendation

    1.     The PHS should take steps to clarify for all members the
           purpose of the NMES Work Group and the role members are
           expected to play.

    PHS   Comment

    We concur.    The Agency    for Health Care policy and Research
    (=CPR) will take necessary actions to ensure that the objective
    of this recommendation is met by addressing Departmental concerns
    regarding the purpose and role of the WS             Working Group.      Both
    technical and policy input is needed in order to ensure that all
    Departmental concerns are met.           It may be necessaq      to form a
    second group of senior      Departmental      officials to fully    address
    policy  needs  and concerns.      Accordingly,     AHCM? will    explore this
    and other options with PHS and Departmental officials and will,
    within four months, establish an appropriate mechanism for
    addressing policy needs and issues in NMES planning.

    OIG Recommendation

    2.     The PHS, Office of the Assistant Secretary for Planning and
           Evaluation (ASPE), and Office of the Assistant Secretary for
           Management and Budget (ASMB) should reach an agreement on
           information needed by the Office of the Secretary (OS) to
           effectively analyze current and upcoming NMES budget
           requests.

    PHS Comment

We concur.   AHCPR will, in concert with the PHS and the OS, take
necessary actions to continue to ensure that documentation needed
in the NMES budget review process is prepared in accordance with
Departmental needs and submitted to OS components in a timely
manner.   AHCPR presented a schedule of deliverables for NMES-3 to
the Data Planning and Analysis Work Group.    The Work Group
approved this schedule of deliverables and transmitted its
recommendation to ASPE and ASMB.

    OIG Recommendation

    3.     The PHS should identify innovations to speed the release of
           NMES data as soon as technically feasible.
                                                                                   2


PHS Comment

We concur.   The timely release of public use data remains an
important aspect of the NMES project. As the OIG report
acknowledges, AHCPR has taken steps in the NMES-3 methodological
studies to improve the release t~e for p~lic    use tapes.  AHCPR
will ensure that appropriate efforts continue to be made in this
regard.

Much of the delay     in releasing       NMES    data is    explained by the need
to contact the medical providers, employers, and insurers of the
households in the sample in order to obtain accurate and complete
data on health expenditures, health insurance premiums, and
health plan provisions.           In the NMES-3 methodological            studies
AHCPR is testing several procedures to expedite the fielding of
these follow-up su~eys,           including the feasibility of mounting
the follow-up surveys      while     the  household      Sumey    is still    in the
field.

In addition, su=ey methodologists at AHCPR are analyzing NMES-2
data to identify changes, in questionnaire design and estimation
procedures, that would shorten the time from data collection to
estimation.        For example, problematic sections of the NMES-2
~esti-onnaires       have been identified      and are being     re-designed     to
eliminate      the rleeci for extensive   editing    and imputation.         Simpler
procedures for imputing missing expenditure items are being
evaluated for their effects on data quality.

The AHCPR is investigating the efficiencies that might be
realized from greater reliance on computer-assisted inte~iewing
in NMES-3.   AHCPR is also re-examining the requirements of the
data collection contractor with respect to data editing and
cleaning, and exploring other ways that could be used by
contractors to expedite the release of NMES data.

Technical    Comments

o   Paae 6 includes discussions of some concerns regarding the
    currency of the NMES data.   However, it should be noted that
    the data can be adjusted to reflect changes in prices and, in
    fact, it is far more economical to adjust  data than to collect
    it more often.  Only when there are ~jor   changes in the
    industry do the data become less useful for policy studies.
    Currently, NMES-2 data are being used by virtually all
    researchers involved in studies of health care reform.

o   Paae 8 includes    a statement   that     the   proposed   costs   of   -S-3
    are between    $88 and $100 million.
                                       In fact,  the proposed
    budget  for                        This figure has been
                  NMES-3 is $80 million.
    presented to the OS and the Office of Management and Budget on
    numerous occasions.  For planning purposes, it is Departmental
-.



                                                                                                 3


         practice not to include the costs of staff and other
         relatively fixed costs in estimates for such projects.
         Further, it is not appropriate to include the estimated costs

         of providing technical assistance to the Executive Branch as

         part of the data collection costs.


         Mso,     please note that page s of the report states that the
         estimated cost of NM.ES-3 & be~e=n       $88 and $131 million and
         includes    follow-up analyses and staff   costs.

     o	 Pa~e 8 i.rlcludes   disctlssion    of concerns    r=garciing                 the lack of a
        strategic planning process         for evaluating     c~rexlt                  and future
        health  care utilization        and expenditure    surveys.                    This
         statement   is supported     by   anecdotal           evidence       provided      in
         inte=iews     with several     senior         officials          who “ . ..agreed     with
         this obsemation.”    For a more balanced perspective, the
         report should note that plans for NMES-2 were reviewed and
         considered at the highest levels within the Department.   In
         addition, the Data Planning and Analysis Working Group has

         completed a review of data needs and issues in health care use

         and expenditures and has developed a number of strategic
         planning recommendations.

     o   Paae 8 includes discussion of concerns regarding the
         appearance of inadequacy in the budget process.  For balance,
         we suggest that the report note that all budget data requested

         by the ASMB were presented in tie preliminary budget submitted

         to the Department.  After submission of the budget document,

         ASMB made an ad hoc request for additional data, which PHS

         provided to them in a timely manner.
